<html>
<title> - THE PASSPORT ISSUANCE PROCESS: CLOSING THE DOOR TO FRAUD</title>
<body><pre>[Senate Hearing 111-212]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-212

        THE PASSPORT ISSUANCE PROCESS: CLOSING THE DOOR TO FRAUD

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON TERRORISM,
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2009

                               __________

                          Serial No. J-111-19

                               __________

         Printed for the use of the Committee on the Judiciary





                  U.S. GOVERNMENT PRINTING OFFICE
54-246 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
RON WYDEN, Oregon
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                 BENJAMIN L. CARDIN, Maryland, Chairman
HERB KOHL, Wisconsin                 JON KYL, Arizona
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
RON WYDEN, Oregon                    TOM COBURN, Oklahoma
EDWARD E. KAUFMAN, Delaware
                Bill Van Horne, Democratic Chief Counsel
               Stephen Higgins, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland.......................................................     1
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     3
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     2

                               WITNESSES

Ford, Jess T., Director, International Affairs and Trade, U.S. 
  Government Accountability Office, Washington, D.C..............    19
Sprague, Brenda S., Deputy Assistant Secretary for Passport 
  Services, Bureau of Consular Affairs, U.S. Department of State, 
  Washington, D.C................................................     5

                       SUBMISSIONS FOR THE RECORD

Ford, Jess T., Director, International Affairs and Trade, U.S. 
  Government Accountability Office, Washington, D.C., statement..    27
Sprague, Brenda S., Deputy Assistant Secretary for Passport 
  Services, Bureau of Consular Affairs, U.S. Department of State, 
  Washington, D.C., statement....................................    35
Verma, Richard R., Assistant Secretary, Legislative Affairs, 
  Department of State, Washington, D.C., letter..................    40
Walle, Colin Patrick, Vice President, National Federation of 
  Federal Employees (NFFE), Washington, D.C., statement..........    44

 
        THE PASSPORT ISSUANCE PROCESS: CLOSING THE DOOR TO FRAUD

                              ----------                              


                          TUESDAY, MAY 5, 2009

                                       U.S. Senate,
           Subcommittee on Terrorism and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, Chairman of the Subcommittee, presiding.
    Present: Senators Cardin, Feinstein, and Kyl.

 OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR 
                   FROM THE STATE OF MARYLAND

    Chairman Cardin. The Subcommittee on Terrorism and Homeland 
Security will come to order. I want to thank our witnesses for 
being here today. I particularly want to thank Senator Kyl and 
Senator Feinstein for the purpose for why this hearing has been 
called, looking into the security of the issuance of passports. 
It was Senator Feinstein and Senator Kyl who asked GAO to 
undertake a study to proactively test the effectiveness of our 
current passport- issuing process to determine whether 
malicious individuals could use counterfeit or fraudulently 
obtained documents to obtain a genuine U.S. passport.
    Now, this is an extremely important issue for us because 
the passport is the gold standard for identification in this 
country. It is used for so many purposes, and it also, of 
course, gives an individual an ability to travel, which is an 
important tool for someone who wants to do harm, including 
terrorists.
    The GAO report that we have before us--and we will be 
hearing from GAO today--concludes that terrorists or criminals 
could--I am quoting from the report. ``Terrorists or criminals 
could steal an American citizen's identity, use basic 
counterfeiting skills to create fraudulent documents for that 
identity, and obtain genuine U.S. passports from the State 
Department. GAO conducted four tests simulating this approach 
and was successful in obtaining a genuine U.S. passport in each 
case. In all four tests, GAO used counterfeit and/or 
fraudulently obtained documents. The State Department and the 
United States Postal Service employees did not identify GAO's 
documents as counterfeit. GAO's investigators later purchased 
an airline ticket under the name used on the fraudulent 
passport and then used the passport to check in for the flight, 
get a boarding pass, and passed through security checkpoints at 
the airport.''
    Now, that should alarm all of us--four out of four able to 
obtain fraudulent passports. In one case, the applicant used 
the Social Security number of a 5-year-old fictitious child, 
and the applicant was 53 years old. In another case, the 
applicant used the Social Security number of a deceased 
individual who died in 1965, and we have records where that 
could have been checked out.
    Now, the State Department acknowledges the problems, and I 
know recommendations have been made by GAO, and we are talking 
about making modifications in the system. And that may give us 
some comfort if this was the first time that these issues were 
brought to our attention. But there have been previous GAO 
reports with similar findings and similar efforts and 
commitments made to correct the failures of the system.
    So as has been pointed out in the report, ``State officials 
have known about the vulnerabilities in the passport-issuing 
process for many years, but have failed to effectively address 
these vulnerabilities.''
    That is a serious statement, one in which this Committee is 
going to ask questions today. We are concerned of whether GAO's 
recommendations will be effectively acted upon.
    Now, I want to submit for the record the National 
Federation of Federal Employees Local 1998, statements talking 
about the pressure on passport specialists to act quickly on 
approval. And I understand that. You are probably getting calls 
from our office telling you to move these passports a little 
bit more expeditiously, people have planes to catch, and get 
these passports issued. There is pressure. I understand that. 
But we have got to get it right. We cannot issue fraudulent 
passports in this country. We have got to take every step to 
make sure that cannot be done. There is too much reliance on 
the reliability of a passport that goes through our 
international borders.
    So, today, we will hear from Brenda Sprague, Deputy 
Assistant Secretary for Passport Services, Bureau of Consular 
Affairs at the U.S. State Department, and from Jess Ford, the 
Director of International Affairs and Trade at the GAO.
    With that, let me turn to Senator Kyl, who has been the 
moving force behind the GAO report and this hearing.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and thanks also to 
Senator Feinstein, as you mentioned, who was also active in 
seeking to get this information. I appreciate the work of the 
GAO. Obviously, we will learn at the time that Mr. Ford 
testifies a little bit more about their evaluation of the 
extent to which this is a problem. But certainly in the report, 
it is evident that we do have a problem.
    I want to acknowledge--and, incidentally, I totally agree 
with everything you said in your opening statement, Mr. 
Chairman. The passport is supposed to be the gold standard for 
documents in the United States, and yet this GAO report 
verifies that it is not as reliable as we thought it was.
    There are some corrective actions I understand State has 
indicated that it is taking, but I think there are some other 
common-sense things that have not yet been done, and perhaps 
the best thing I can do is just presage some of the questions 
that I will be asking, and perhaps in opening statements you 
can address these: first of all, why so many individuals' 
applications were approved even though there were no Social 
Security numbers sought or supplied. Something like 72,000 
applicants, according to GAO, in just a 6-month period last 
year received passports without supplying a Social Security 
number.
    And then, conversely, in those situations where there was a 
number supplied, the State Department approved thousands of 
applications without any feedback from Social Security as to 
whether the number was accurate or whether the individual was 
connected to the number. And, also, whether it is current 
policy--this is the way current policy at least is described, 
in which case obviously policy was breached in many of these 
cases--whether it is current policy to approve applications 
from only individuals who have presented a Social Security 
number and only after word has come back from the Social 
Security Administration confirming the information relative to 
that number. If that is the policy, it has obviously been 
breached. If it is not the policy, why isn't it?
    And, finally, asking whether--and I will be primarily 
focused on this from our GAO witness, but whether weakening the 
REAL ID driver's license requirements will also end up making 
it possible for more criminals, terrorists, and others to get 
fraudulent passports and thereby pose an additional risk to the 
country.
    As I said, the U.S. passport is thought to be the most 
secure identification that we have in this country, and clearly 
that is not the case, according to the GAO report. We need to 
make sure that enough changes are effectuated that we can 
return to that gold standard, and that will be up to our 
colleagues at the State Department to ensure that this is 
accomplished.
    Thank you, Mr. Chairman.
    Chairman Cardin. Thank you.
    As I mentioned at the beginning of the hearing, we thank 
Senator Feinstein and Senator Kyl for bringing this issue to 
our Subcommittee's attention and to the American people's 
attention. Senator Feinstein is the former Chairman of this 
Subcommittee, and as I have said many times, I look to her for 
continuing the priority that this Committee has had in 
protecting the security of our country.
    Senator Feinstein?

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Well, thank you very much, Mr. Chairman, 
and I thank you for your leadership. It is very much 
appreciated. And thank you for continuing the tradition that 
Senator Kyl and I began. I think we spent a lot of time on this 
issue in this Subcommittee, and we now have the GAO report. And 
so if I may, as you know, I went on to chair Intelligence, and 
so I have got an Intelligence meeting. But I believe this is 
important, so I would like to make a brief statement, if I 
might.
    Chairman Cardin. Certainly.
    Senator Feinstein. When the GAO uncovered in its 
investigation--what it uncovered I think is very alarming. A 
GAO undercover agent attempted to get a United States passport 
based on counterfeit documents and fraudulent Social Security 
numbers and succeeded in four out of four attempts. That is 100 
percent of the time.
    The State Department failed to clear all four of these 
passports through the Social Security number clearance check--
first mistake--which takes only 24 hours.
    The State Department did not identify the counterfeit birth 
certificates or the counterfeit driver's licenses. It also 
issued all four passports to the same individual and had no 
system to pick this up. One passport, as we know, was issued to 
a middle-aged man based on a 5-year-old's Social Security 
number, and another was issued even though the Social Security 
number was from a deceased individual.
    Now, the question arises: How many passports are out there 
that were wrongly issued and are being used by those seeking to 
do others harm?
    The State Department will testify today that it has made 
concrete steps to begin to close these vulnerabilities. While 
this is encouraging, State Department officials have known 
about these vulnerabilities for many years, but have failed to 
fully secure the process.
    For example, the GAO, in a report released in 2005--that is 
4 years ago--recommended that the State Department check all 
Social Security numbers against the Social Security 
Administration's data base of deceased individuals. But this 
was not done until December 2008, 3 years later. In addition, 
it is my understanding that employees processing the passports 
had raised this solution with the State Department as early as 
2001.
    Now, the GAO's report contains problems and solutions, and 
let me run through a few of them.
    Problem: Applications were not held for 24 hours to allow 
for Social Security numbers to clear a system. Solution: No 
passports should be issued before the 24-hour Social Security 
check is clear.
    Problem: Adjudicators did not identify counterfeit birth 
certificates. Solution: A birth certificates data base to 
provide greater access to a national data base verifying birth 
certificates. This is in existence.
    Problem: Adjudicators did not identify counterfeit driver's 
licenses. Access to a national driver clearinghouse is 
available. Bureau of Diplomatic Security can request that the 
passport office gain access to this data base.
    Problem: All four passports were processed to the same 
person. Solution: Develop the technology to have the photograph 
matched against existing data bases. The State Department is 
building a facial recognition system currently.
    Problem: Social Security number did not match with date of 
birth given, was flagged by computer, but missed by adjudicator 
on the screen. This is a human error. Training and oversight 
for all adjudicators is presented as the solution, along with 
regular audits and undercover checks internally of passport 
issuance process.
    Problem: Social Security number that belonged to deceased 
was not caught. Solution: Again, the Social Security death 
match system is now up and running since December of 2008.
    And the final problem: The State Department did not know it 
had wrongly issued the passports until the GAO told them. And 
the solution is to require an audit for passports issued 
wrongfully.
    So there are solutions to every one of these problems, but, 
you know, I think that the passport is more and more becoming 
the common identity document. And if this passport is easily 
forged and so easily obtained that the clearances are not gone 
through by State, I think it jeopardizes the whole system.
    In my view, this is a very important hearing, Mr. Chairman. 
I thank you for holding it, and hopefully the State Department 
will be willing to take the necessary actions.
    Chairman Cardin. Thank you, Senator Feinstein.
    I would ask that Ms. Sprague and at the same time if Mr. 
Ford would just be prepared to take the oath, that way we could 
do both of you at one time. Thank you. If you would raise your 
right hand. Do you affirm that the testimony you are about to 
give before the Committee will be the truth, the whole truth, 
and nothing but the truth?
    Ms. Sprague. I do.
    Mr. Ford. I do.
    Chairman Cardin. Thank you. Ms. Sprague, we are pleased to 
hear from you.

STATEMENT OF BRENDA S. SPRAGUE, DEPUTY ASSISTANT SECRETARY FOR 
PASSPORT SERVICES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Ms. Sprague. Chairman Cardin, Senator Kyl, Senator 
Feinstein, and distinguished members of the Subcommittee, I 
appreciate this opportunity to discuss the passport issuance 
process and the plans we have to address our fraud 
vulnerabilities. We take seriously our responsibility to 
protect U.S. borders and the integrity of the U.S. passport 
through vigilant adjudication. The Bureau of Consular Affairs 
works diligently to improve training, procedures, and oversight 
throughout the passport adjudication process. The outcome of 
the General Accountability Office's recent investigation shows 
that we need to do more. We have already taken a number of 
immediate actions and are in the process of devising a detailed 
plan to enhance our entire process and program.
    As you already have been briefed, a GAO investigative team 
informed Consular Affairs on February 10, 2009 that they had 
performed a probe of the passport issuance process. The team 
reported that a GAO investigator submitted four passport 
applications--three at local postal acceptance facilities and 
one at a passport agency--utilizing a combination of 
counterfeit or fraudulently obtained documents. All four 
applications resulted in U.S. passports being issued in error. 
The subsequent GAO report specifically identified two major/
significant vulnerabilities in our process: one, that passport 
specialists were unknowingly approving applications before all 
information checks were completed; and two, passport 
specialists and acceptance agents did not recognize fraudulent 
documents.
    CA immediately initiated a number of measures to address 
these vulnerabilities and to mitigate potential fraud in the 
future. Some measures taken or contemplated would be more 
appropriately discussed only in a closed session.
    First, upon receiving information from the GAO regarding 
the four passports issued in error, we promptly identified each 
passport, and in accordance with standard operating procedures, 
we revoked the passports and posted corresponding ``lookout 
alerts'' in our internal systems and with U.S. border officials 
and Interpol.
    We suspended adjudication approval authority for the four 
passport specialists who issued the four GAO applications.
    We suspended the authority of the acceptance facilities 
that accepted the three GAO applications.
    We immediately provided counterfeit document detection 
refresher training to all passport agency managers and 
specialists. Biweekly case study meetings are being held by 
agency supervisors with the passport specialists regarding 
unfamiliar or fraudulent documentation received in the office. 
The GAO report was shared with passport agency staff to 
reiterate the importance of carefully reviewing identification 
and citizenship documents, as well as the information on 
passport applications, to detect fraud. In addition, we revised 
performance standards for passport specialists to re-
emphasize the importance of quality adjudication and fraud 
prevention performance standards.
    We instituted a 100-percent audit of all live applications. 
Passport specialists were released from the audit only when 
they had demonstrated to their supervisors that they were 
processing work in full compliance with adjudication standards 
as related to both proper annotation and attention to possible 
fraud indicators.
    We revised our procedures regarding the processing of same 
day ``will call'' service cases. Additional supervisory 
oversight is required for all same day applications. Agencies 
have been directed to complete all information checks prior to 
the issuance of the passport. These procedural changes enhance 
our ability to identify potential fraudulent applications or 
documents. Additionally, passport acceptance agents at post 
offices and courthouses and passport specialists at our 
passport counters must now photocopy all identification 
documentation submitted by applicants so that it can become a 
permanent part of the passport record.
    Second, we created an Adjudication Policy and Process 
Review Working Group in mid-March to help further identify 
necessary improvements. This working group consists of five 
subgroups, which are:
    One, Restructuring of Adjudication Process and Oversight: 
This subgroup is reviewing the current adjudication program and 
working on recommendations to restructure our processes. 
Additionally, the subgroup is working on recommendations for a 
new adjudicative managerial oversight function.
    Adjudication Requirements and Standards: This subgroup is 
developing standardized desk and counter adjudication 
procedures. Additionally, it is developing standardized 
procedures for passport specialists regarding the use of the 
Social Security number and other commercial data-bases.
    Post-Issuance Audit: This subgroup is developing a 
statistically valid audit process for previously issued 
passports. The results from this audit will be used for future 
training purposes.
    Training Initiatives: This subgroup is identifying 
enhancements for fraud training for all passport specialists, 
supervisors, and fraud prevention managers. It is reviewing the 
curriculum of the National Training Program, which we use for 
training our new employees, to ensure that it appropriately and 
thoroughly addresses the document verification requirements 
used by passport specialists. Also, the subgroup is identifying 
and recommending standard requirements for on-the-job training 
for new hires once they complete the National Training Program 
and begin working with ``live''--unapproved--applications. 
Additionally, it is developing standardized fraud awareness 
training for our courthouse and post office acceptance 
facilities.
    Technology: This subgroup is identifying technical and 
procedural vulnerabilities to the integrity of the passport 
process. Additionally, it is working on recommendations for 
improvement to our automated systems through access to 
additional data-bases. In connection with this initiative, we 
have already developed the business process requirements for 
introduction of a facial recognition tool by the end of the 
calendar year.
    Formal recommendations from the subgroups are expected by 
the summer of 2009. Shortly afterward, they will be compiled, 
finalized, and forwarded for Department management approval.
    Third, CA is already working on some long-term initiatives 
to address our process vulnerabilities. We are currently 
pursuing an initiative to combine the systems platforms for 
domestic and overseas passport adjudication and issuance to 
ensure consistency and improve overall quality control. The 
combined system will utilize as many automated adjudication 
checks as possible.
    The GAO report recommended that we work with State-level 
officials to develop a strategy to gain access to their data-
bases and incorporate reviews of these data-bases into our 
adjudication process. Prior to the GAO undercover test, CA 
officials had held ongoing meetings with Federal and State 
government agencies regarding access to information and data-
bases for citizenship and identity verification. As a result of 
the GAO's recent recommendation, I also sent a letter to all 
State Registrars asking for their assistance in providing the 
Department access to their birth and death records for 
verification purposes. We plan to vigorously continue this 
effort.
    I appreciate the opportunity to share with you the 
Department of State's comprehensive approach to enhancing U.S. 
border security by augmenting the security of all aspects of 
the U.S. passport program. We appreciate GAO's constructive 
recommendations and look forward to working with Congress and 
the GAO to produce the most secure passport possible. Let me 
end by assuring you that the Department is fully committed to a 
secure passport issuance process and deterring and detecting 
fraud.
    Mr. Chairman, thank you again for the opportunity to be 
here today. I will be pleased to answer any questions that you, 
the Ranking Member, and other distinguished members of the 
Subcommittee might have.
    [The prepared statement of Ms. Sprague appears as a 
submission for the record.]
    Chairman Cardin. Well, Ms. Sprague, thank you very much for 
your testimony. I think everything you said, it is hard to 
disagree with any of the changes that you are putting in place.
    I want to point out that I will confer with Senator Kyl and 
Senator Feinstein after this hearing to determine whether we 
need a closed session to go over the recommendations that 
cannot be done in a public session, and we will make a 
determination.
    But I want to just ask you first, tell me the reaction in 
your Department when you found out about the GAO report that 
four out of four fraudulent passports were obtained by the use 
of fraudulent information.
    Ms. Sprague. Speaking for our management team, I would say 
the correct reaction would be they were heartsick, horrified, 
embarrassed. Speaking for the passport specialists with whom I 
have spoken, they were horrified, upset, anxious, concerned, 
and they have cooperated in a tremendous way with us, all of 
them, to try and address these vulnerabilities and find ways to 
improve our situation and to make things better.
    Chairman Cardin. I appreciate that.
    Senator Feinstein pointed out something I had read earlier, 
that these passports were used to obtain boarding passes for 
flights. It is very conceivable that this method could have 
been used by a terrorist in order to gain into travel and then 
having a passport that would not reflect any sign of concern to 
the security people at the border. That obviously is a 
significant breach in the security system of our country.
    What concerns me is that this is not the first time. There 
have been previous GAO reports and there was your own internal 
report in 2008 that showed the issuance of passports that 
should not have been issued to criminals.
    Why is it different this time? Why should this Committee 
expect that these recommendations will be effectively 
implemented when in the past they have not been effectively 
implemented?
    Ms. Sprague. Mr. Chairman, we have a very difficult 
challenge facing us, and we have addressed it in a number of 
ways.
    When we look at a passport and we sit down to adjudicate 
it, we are trying to establish three things: No. 1, the 
identity of the individual; No. 2, whether or not this 
individual is a citizen; and, No. 3, whether or not there is 
some reason this person should be prevented from traveling.
    I would like to address the alert system first. We have, 
since 2005, done a great deal of work on our alert system 
working with the Terrorism Screening Group, working with NCIC, 
working with our own colleagues in the visa office, to make a 
system, a lookout system that is first class. We believe that 
people who have been identified to us by law enforcement who 
apply in their own names would, in fact, be intercepted.
    The second part of that is identity. Identity is very 
difficult. We rely upon, for the most part, driver's licenses. 
There are difficulties with driver's licenses. We, of course, 
have difficulties verifying the identity of driver's licenses. 
But even when we can verify that a driver's license was issued 
to a particular individual, we have no guarantee that that 
person is, in fact, who----
    Chairman Cardin. I also understand you do require in almost 
all cases a Social Security number.
    Ms. Sprague. We do require a Social Security number, but we 
cannot refuse to adjudicate a passport if someone does not 
provide a Social Security number.
    Chairman Cardin. Let us first start with those who do 
supply a Social Security number.
    Ms. Sprague. Yes.
    Chairman Cardin. We have data banks which could have 
discovered in, I would think, both of the cases in which the 
fraudulent Social Security numbers were used that they were 
fraudulent. Why were they not used? And has that been 
corrected? Will there be routinely the use of the data banks to 
determine whether the number given is from a person who is 
alive and at the proper age?
    Ms. Sprague. We have a system--it is a 24-hour batch 
process--that we rely upon to confirm the validity of the 
Social Security number. Actually, the overnight check provides 
us a hit against the Social Security Death Master File as well 
as giving us a match/no-match. But it also provides us with 
reasons that there is not a match so that we can further 
resolve it, because in many instances the Social Security data-
base will have errors or there will be data entry errors, and 
we are able to resolve those with the help of Social Security.
    The reason this happened--and this was something that GAO 
brought----
    Chairman Cardin. But my question is----
    Ms. Sprague.--to our attention--is that the 24-hour batch 
did not run. For probably the first time in our history, we 
were able to move passport applications so quickly that we were 
unaware of the fact that the check had not been run. We----
    Chairman Cardin. I do not follow that. I cannot follow 
that. You lost me.
    Ms. Sprague. The applications----
    Chairman Cardin. You are saying that there was a system in 
place for the Social Security number checks, you thought they 
had been done, but they were not done?
    Ms. Sprague. Yes. The short answer is yes. At 
headquarters----
    Chairman Cardin. That is even more concerning.
    Ms. Sprague. It is a concern.
    Chairman Cardin. Because how do we know that that will not 
happen--that is not happening right now?
    Ms. Sprague. Because we have given directive to the field 
that no application is to be processed until the 24-hour match 
is.
    Historically, passport applications did not move through 
the system as quickly, and after the passport surge, we had 
hired a great deal more people, and then when passport demand 
went down in 2008, the work began to move through the system so 
quickly that, unbeknownst to the people who were processing it 
and unbeknownst to us at headquarters, it actually was given to 
the adjudicators before the check had been run. And just 
looking at the batch, there was no way for the supervision or 
the individual employee to realize that had not been done.
    Chairman Cardin. How would they know today that it has been 
done?
    Ms. Sprague. Because we are not going to permit anything to 
go faster than 24 hours. It simply will not be turned over.
    Chairman Cardin. Well, how will they know that the actual 
check has been done? Let us take the case that there is--that 
the system is down that does the checks or that someone does 
not show up that is responsible for it or it is one of those 
that gets lost through the system and no check was done. How 
will the individual who approves the passport know that the 
actual check has been done?
    Ms. Sprague. There is a screen that appears on the--there 
is a box that appears on the screen that says ``No record 
found.'' We have instituted new procedures that when that 
happens, it must immediately be turned over to a supervision. 
So, in this particular instance, the passport adjudicators got 
the ``No record found'' and proceeded anyway. We have put a 
stop to that.
    Chairman Cardin. I am still not comfortable that we have a 
system in place that will stop the issuance of a passport, 
checks have been made as to whether this person has a valid 
Social Security number or not. You are telling me that on the 
screen of the person who is going to approve the application 
there will be a reply saying ``No record found,'' or something 
like that.
    Ms. Sprague. It says ``No record found,'' and in that case 
it must be pulled and handed over.
    In the case of a death match, for instance, adjudication 
stops and the application cannot be processed anymore.
    Chairman Cardin. OK. Let us take both cases, and let me 
just finish this up. If it shows that the person is deceased, 
the Social Security number used, obviously you are not issuing 
the passport, at least that is----
    Ms. Sprague. That is correct.
    Chairman Cardin. What do you do? Do you then send it to 
investigation?
    Ms. Sprague. We send it to the fraud prevention manager, 
and after he has conducted his investigation, it can be turned 
over to Diplomatic Security for further investigation, and that 
is normally the route that it would go.
    Chairman Cardin. And that could lead to prosecution or----
    Ms. Sprague. It could indeed.
    Chairman Cardin. And now, if you find no record found, 
previously if it was 24 hours later, the passport would have 
been issued, and now you are telling me it will not be issued, 
it will be sent to a supervisor?
    Ms. Sprague. It should never have been issued, but we have 
taken additional steps to ensure that the ``No record found'' 
will, in fact, stop the adjudication.
    Chairman Cardin. Can you override that?
    Ms. Sprague. At this time we can, but that is one of the 
things we are going to be looking at and making it impossible 
to do so.
    One of the problems that we have with Social Security is 
that there can be a lot of errors in the Social Security data-
base.
    Chairman Cardin. I understand.
    Ms. Sprague. And as a result of that, we do want to enable 
the supervisor, and at times even the adjudicator, to be able 
to override what can be easily identified, for instance, 
transposition of a number. But we have to----
    Chairman Cardin. I just want to make sure it is not 
overridden because of an anxious traveler.
    Ms. Sprague. I agree with you.
    Chairman Cardin. I want to make sure that there is someone 
looking at it that is satisfied that this person is entitled to 
have a passport issued. I am still not satisfied that you have 
that in place. And I must tell you, you are not giving me a 
comfort level that I would like to have today.
    I have some more questions for the second round. Let me 
turn it over to Senator Kyl.
    Senator Kyl. Senator Feinstein, do you need to leave?
    Senator Feinstein. I have just--if I may just for a minute 
and then I will excuse myself.
    Ms. Sprague, we have been looking at this for a while now. 
I think the only way to really know if your reforms are 
effective is in 6 to 9 months ask for another GAO 
investigation. I found when I was mayor of San Francisco, I 
sent an undercover officer out to San Francisco airport with a 
concealed weapon and said, ``See if you can go through the 
magnetometers. I want to see how good they are.'' Again, four 
out of four times they got through, which sent a very loud 
message of what we had to do, and I think this sends a very 
loud message of what you have to do.
    My view is that no passport should be issued until these 
checks are complete. No system should be overridden to give a 
passport. And what I suspect has happened--and I cannot prove 
this--is that somebody has said, you know, move those 
passports. And so they go out before the checks have been 
adequately performed.
    I think as the Chairman referenced--and the Ranking Member 
knows very well--this is really the soft under-belly of our 
country, and it really puts us in harm's way if these checks 
are not made.
    So I have no question other than to say to you it is really 
up to you, and I believe that the Senate will support you in 
this matter. We cannot put out passports that are gained with 
fraudulent documents, ever.
    Ms. Sprague. Absolutely.
    Senator Feinstein. So thank you very much for being here, 
and we will do another report, and we will see how good you 
did.
    Ms. Sprague. Senator Feinstein, I did want to tell you 
that, in response to the GAO investigation, we are working with 
the Bureau of Diplomatic Security to create red teams who will 
test our system and give us a heads up, so the next time that 
GAO comes, we will be ready.
    Senator Feinstein. Good.
    Chairman Cardin. Will we get those reports from what your 
red teams find?
    Ms. Sprague. I think we can arrange for that.
    Chairman Cardin. Senator Kyl.
    Senator Kyl. Thank you----
    Senator Feinstein. Thank you, Senator Kyl.
    Senator Kyl. Sure, you bet.
    There are so many questions here. This may seem a little 
scattershot, but let me just fire away here. One of the things 
that Mr. Ford's report says is that the limitations in the 
access to interagency information contribute to vulnerabilities 
related to processes. Do you concur with that?
    Ms. Sprague. I think that we get very excellent cooperation 
from our Federal partners. We work very closely with the 
Department of Homeland Security, with the FBI, and with other 
organizations. Our difficulties arise when we are attempting to 
assimilate and work with the data from the 50 States and the 
District of Columbia.
    Senator Kyl. So to the extent that he may be referring to 
State agencies, you concur, but you do not agree that 
limitations and access to interagency information--
``interagency'' sort of seems to me within the Federal 
Government. You would not agree with that aspect of the report?
    Ms. Sprague. No, I would not. I think that we get very good 
support from Homeland Security, from the intelligence 
community, everybody does----
    Senator Kyl. So there is no Federal data-base that you are 
not able----
    Ms. Sprague. No. Some of the Federal data-bases, we wish 
they were a little bit better than they are, but----
    Senator Kyl. But no limitations on access to them.
    Ms. Sprague. No limitations.
    Senator Kyl. Thank you. OK. You indicated you are in the 
process of designing a plan. You proceeded then to indicate a 
lot of other things that are already being done, but with 
regard to this plan, do you have an estimate of when that will 
be done?
    Ms. Sprague. I am sorry. I do not----
    Senator Kyl. One of the very first things you said when you 
began your testimony was that you are in the process of 
designing a----
    Ms. Sprague. Oh, OK. We are going to have--we have the 
preliminary reports of the working group are being done this 
week. We have our regional directors here in town. They have 
done some outstanding work. I have had a pre- briefing from the 
five groups. I think we will be moving forward on implementing 
most of those recommendations before the end of the summer, 
some of them even sooner than that.
    Senator Kyl. You will let us know when that has occurred 
and provide that to us.
    Ms. Sprague. Absolutely.
    Senator Kyl. Thanks. You said that you cannot refuse to 
issue a passport if there is no Social Security number 
supplied. Is that correct?
    Ms. Sprague. That is correct.
    Senator Kyl. What is the reason for that?
    Ms. Sprague. Because we do not have legislative authority 
to do that.
    Senator Kyl. What legislative authority do you have to deny 
a passport?
    Ms. Sprague. Someone is not a U.S. citizen or they are not 
a person who--they are not the individual--they are not 
applying in the correct name, obviously, identity, but also 
they----
    Senator Kyl. So it is the judgment that they are not a 
citizen or they should not be able to travel?
    Ms. Sprague. Yes. And there are also some other holds on 
the issuance of passports such as active warrants, if people 
have child care----
    Senator Kyl. OK. So they--excuse me for interrupting here, 
but so the bases for denial certainly could be that there is no 
valid Social Security number supplied, but you cannot deny it 
simply based on that fact. Is that what you are saying?
    Ms. Sprague. That is what I am saying. The lack of a Social 
Security number is considered a very significant fraud 
indicator.
    Senator Kyl. Right.
    Ms. Sprague. And it immediately subjects the application to 
additional scrutiny.
    Senator Kyl. OK, or at least should have and will in the 
future.
    Ms. Sprague. Absolutely.
    Senator Kyl. Is the same thing true with regard to a 
driver's license? Because you said that mostly for identity 
purposes you rely on driver's licenses.
    Ms. Sprague. Driver's licenses are a serious problem for 
us, and we have been working with, for example, the American 
Association of Motor Vehicle Administrators and seeking to have 
access to a data-base. There is a law enforcement data-base. 
The Bureau of Diplomatic Security is working on getting us 
access to it.
    For our purposes, we would like to have front-end access so 
that all that information is available to the adjudicator 
before they start. At this stage, what it appears would be the 
only thing available to us is query access, which does not give 
us as good a feeling as it would be if we could check 
everything, as we do with warrants, for example.
    Senator Kyl. Failing to prove identity of proving the wrong 
identity is a basis for refusal.
    Ms. Sprague. Absolutely.
    Senator Kyl. Using the driver's license is one of the key 
things that you use to determine identity.
    Ms. Sprague. Yes.
    Senator Kyl. Theoretically, you could identify a person 
through some other means and still issue a passport. Is that 
what you are saying?
    Ms. Sprague. Well, not everyone has a driver's license.
    Senator Kyl. Right. So the answer is, yes, theoretically 
you could.
    Ms. Sprague. Yes.
    Senator Kyl. OK. What would be the impact if the REAL ID 
requirements were loosened in some way?
    Ms. Sprague. I will candidly tell you I am very 
disappointed at the idea that we will back away from some of 
those requirements. We were very enthusiastic about tougher 
standards for driver's licenses.
    Senator Kyl. One thing. Based on the comprehensive 
immigration bill that I helped to draft a couple years ago, the 
two-stage process of checking the Social Security and then 
verifying the identity of the individual based upon a visual 
check of the driver's license. One of the ideas that had come 
out of that was that there is some kind of association of State 
driver's license bureaus, whatever that is called, and that it 
should be possible to get that group to compile all of their 
information together for at least an accessing of information, 
if not pre-access to it.
    Are you aware of that? Or is that what you were referring 
to?
    Ms. Sprague. We are aware of that, and we have been in 
touch with the American Association of Motor Vehicle 
Administrators, and they are doing work in this area. However, 
they are encountering significant difficulties because of 
privacy requirements on a State-by-State basis.
    Senator Kyl. Could you, as a part of the follow-up to this 
hearing, give us a little memo on what you would like to see 
there, how it might be useful to you, what problems you are 
encountering?
    Ms. Sprague. We would be delighted to do that.
    Senator Kyl. I appreciate that. You talked about the facial 
recognition tool and said that you hope to have that in effect 
by the end of the year. But that is only for a certain number 
of people or, I guess, as a pilot or what?
    Ms. Sprague. We are hoping to have the whole program in 
place, and we will be using some of the technology that we have 
developed over the years working with visa applicants. The 
State Department has been doing that for a long time, and we 
are going to draw upon the expertise of those people.
    It is a daunting technical challenge because we are going 
to be screening these pictures against a 92-million-file data-
base, and that can be very daunting. And we are going to have 
to figure out how we are doing it.
    As a first step, which we hope to implement even sooner, we 
will be doing facial recognition against the fraud information 
that we have in our own fraud library, and that will be step 
one.
    Senator Kyl. But that is not in every case.
    Ms. Sprague. You would only catch people who were known to 
be frauds.
    Senator Kyl. Yes, right.
    Ms. Sprague. The repeats, such as the ones we had in this, 
will not come about until we get the full facial recognition.
    Senator Kyl. And you hope to have that by the end of the 
year, but it is only the first type of facial recognition, then 
you are going to make it more--well, you describe to me what it 
is. I am still not sure.
    Ms. Sprague. The fraud--the hit on the fraud----
    Senator Kyl. That is all you will have by the end of the 
year?
    Ms. Sprague. We hope to have by the end of the summer. The 
larger program we hope to have by the end of the year.
    Senator Kyl. OK, and describe the ``larger program.''
    Ms. Sprague. The larger program would be that trained 
specialists at the National Visa Center in Kentucky would be 
looking at the application before it comes to the adjudicator, 
reviewing it against the hits that come out of the system, and 
saying this likely----
    Senator Kyl. What hits would come out of the system?
    Ms. Sprague. They would be looking for look-alikes, and 
they have a technology in which they try and do that facial 
recognition and identify characteristics and present people who 
are possible matches. The applicant applies----
    Senator Kyl. Can I just take one more minute here on this? 
The applicant applies and presumably has a driver's license 
with a photograph?
    Ms. Sprague. We are using the photograph that he has 
submitted in connection with----
    Senator Kyl. With the passport, OK. And then you run that 
against a data-base----
    Ms. Sprague. Of 92 million records.
    Senator Kyl. OK. And that data-base, does it purportedly 
have in it all of the driver's licenses that have been issued 
in the country?
    Ms. Sprague. No. It has passport photos, and we would be 
reliant on passport photos to do this check.
    Senator Kyl. So it would be past passport photos.
    Ms. Sprague. Exactly.
    Senator Kyl. So if somebody had a previous passport and it 
was validly issued, you should have a match.
    Ms. Sprague. Exactly.
    Senator Kyl. If they had a previous passport invalidly 
issued, you would still have a match.
    Ms. Sprague. Yes, if they were applying now under a 
different name, there would be a match to the picture.
    Senator Kyl. And that would not show up as a ``to be 
checked'' item in that case.
    Ms. Sprague. Absolutely--well, if you have not--if we had a 
picture come up----
    Senator Kyl. If it is a different name.
    Ms. Sprague.--With a different name and it was the same 
person, that would be an absolute----
    Senator Kyl. Double-check it.
    Ms. Sprague. Yes.
    Senator Kyl. Yes, OK. All right. And I gather at some point 
you would hope to be able to check it against driver's license 
photos. Is that correct?
    Ms. Sprague. I do not know that we would want to go that 
far because I do not know we would have access to that kind of 
record. What we would very much like to do is be able to take 
the driver's license number and check it against a data-base 
that would give us the picture, and then we could compare that 
to the passport photo. That would be a wonderful----
    Senator Kyl. And if I just could, Mr. Chairman, in the 
bill, again, on the comprehensive immigration reform, which was 
not passed, that is exactly the system that was set up, that 
the Association of Motor Vehicle Departments would house the 
photos of all the people with driver's licenses, and when the 
applicant for a job came to the individual and the computer 
screen showed--you punch in the driver's license information, 
it would show the driver's license photo taken on the day that 
the driver's license was issued, and the individual would then 
have the opportunity to match visually the photograph on the 
driver's license with the individual standing in front of him 
or her.
    Ms. Sprague. Yes.
    Senator Kyl. Is that a potential way to help resolve this 
situation?
    Ms. Sprague. Obviously, that would be terrific.
    Senator Kyl. Could you, in that little short memo I asked 
you to do for us, discuss that possibility for us?
    Ms. Sprague. Yes.
    Senator Kyl. Thank you very much.
    Ms. Sprague. Happy to do that.
    Chairman Cardin. Thank you, Senator Kyl.
    I just want to expand on that. I want to give you an 
opportunity. If there is a need for us to strengthen the laws 
on passport issuance, we want to hear from you. So if you 
believe that the law is inadequate as it relates to those 
people who have Social Security numbers and providing 
information for you to do an adequate check, then let us know 
so that we can consider strengthening the law. Or if you do not 
have adequate resources to get this job done, we want to know 
about it. So maybe I can just tag onto Senator Kyl's request, 
make his memo a little bit longer and include those points. But 
if there is a need for us to consider changing the law, or if 
you do not have the resources to get the job done, we want to 
know about it.
    Ms. Sprague. Our most striking need is to have better 
access to State data-bases--death, birth, and also driver's 
license. If we could have that, it would take us a long way. It 
would not solve all our problems because you do not necessarily 
have a direct link between a birth certificate and what happens 
to an individual later on. But it would certainly enable us to 
know that a certificate was issued in this name at that time 
and that the number matched to a number in their system.
    Chairman Cardin. And Senator Feinstein alluded in her 
opening comments to data banks being created in this area. Can 
you give us the status on births? What is the status?
    Ms. Sprague. The National Association of Public Health 
Statistics Information Systems has been given a grant by the 
Department of Homeland Security to create a consolidated data-
base of all the 50 States and the District of Columbia, and 
they are hard at work on that. They anticipate that that will 
be available for all the 50 States and the District of Columbia 
by 2010. We are working with them. They have given us access, 
and we are routinely accessing those States which are already 
participating, but it is not a complete list. It is not even 
half. And we have actually worked with them to approach some 
States to accelerate because these are States in which we have 
a very high number of people applying, and we would very much 
like to verify it. And they are working with us on that, but we 
are not there yet.
    Chairman Cardin. And it is on track now for 2010?
    Ms. Sprague. They tell us December of 2010.
    Chairman Cardin. The end of 2010. And on the driver's 
licenses, you have already covered a good part of this, but 
with the current requirements for driver's licenses, that, of 
course, will be implemented over the next several years, absent 
further delays. Will that give you better access for 
verification of identification?
    Ms. Sprague. It would give us greater confidence in the 
documents that we do see, but the ability to verify that these 
are validly issued driver's licenses would still rely upon a 
national data-base. When we have spoken to the people from the 
American Association of Motor Vehicle Administrators, they have 
given us a rather bleak assessment of when such a data-base 
would be available.
    Chairman Cardin. Is there a commitment to have a national 
data-base?
    Ms. Sprague. The law enforcement community does have a 
national data-base. It is not available to us at this time. But 
the Bureau of Diplomatic Security is acting as a sponsor for us 
to have access to it.
    Chairman Cardin. Is there a reason why you should not be 
able to do a Social Security number check with everyone who has 
Social Security numbers?
    Ms. Sprague. No, there is not.
    Chairman Cardin. But currently that information is not 
necessarily given to you?
    Ms. Sprague. It is given to us in the 24-hour batch 
processing, and we have it within 24 hours after we submit that 
information to the Social Security Administration.
    Chairman Cardin. And you are implementing a process that 
that check must be returned before the passport can be issued.
    Ms. Sprague. Yes. Our Inspector General just completed an 
investigation, an ongoing audit of our activities, and they 
recommended that we stop the process if there is any Social 
Security problem, and we are responding to the OIG's 
recommendation.
    Chairman Cardin. I am not sure we all agree with Senator 
Feinstein that there should be no exceptions to the rule, but I 
think we all agree that there has got to be some really good 
reason for issuing a passport if you have not gotten the 
information back. It should not be a routine decision made 
because of time or those types of considerations. We have to 
have confidence that the person has cleared the basic data 
checks.
    Ms. Sprague. At the present time, we have restricted same-
day issuances, which would be the only instance in which we 
would issue such a--we would issue before the 24-hour batch to 
truly life-and-death emergencies. And we have the ability, even 
for those, to get an instant check with this Social Security 
Death Master File, so that no one is getting a passport until 
that check is completed.
    Chairman Cardin. And I would ask that you would share with 
our Committee, with our staff, your internal audits that you do 
or inspections that you do so that we have an understanding of 
where we are in that process. I think that would be helpful for 
us to be able to get that information, and I appreciate your 
willingness to make that available to us.
    Let me just tell you, I think your first response to the 
first question I asked was a very telling response and one that 
I really sincerely appreciate, because obviously this is a very 
difficult situation for dedicated people who are working very 
hard, and we are all very concerned about it.
    I would just make one final observation, and that is, you 
know, we are under pressure to allow other countries more 
liberal access for their citizens coming into America, and we 
base that upon their reliability and the people who come here 
as being eligible to visit our country. And I think that if we 
would have seen this type of a survey from one of the countries 
that was seeking visa waiver, we may have been very reluctant 
to grant that country a visa waiver. So this is a very serious 
issue, and I think your first response indicated that, and we 
want to work with you to get this corrected. We know how 
important a passport is to a person who is applying for it, so 
it is a very anxious moment until they get that passport in 
their hands. We understand that, particularly if they have 
vacation plans. So we want to work with you to make sure we can 
get this done as efficiently as possible, but we cannot 
compromise our national security.
    Senator Kyl.
    Senator Kyl. Thank you.
    Back to the use of the Social Security numbers, according 
to the GAO report, in the last 6 months before the end of 2008, 
close to 72,000 applicants received passports without supplying 
a Social Security number. Why did that happen?
    Ms. Sprague. In looking at the records quickly--and I 
cannot tell you we did a complete audit review, but we did look 
at it quickly--most of those were children under the age of 1. 
It was out of a universe of 6-million-plus passports, I 
believe, and most of those were children or people living 
abroad who had never acquired a Social Security number.
    Senator Kyl. You talk about a batch process. Is the reason 
why this takes overnight because you bundle them all up and 
send them in all at once?
    Ms. Sprague. It is the way we best interface with Social 
Security to provide data of that volume.
    Senator Kyl. OK. Well, you know that the E-Verify system 
works almost on a real-time basis. If I am an employer and I 
want to check the Social Security number of an applicant, I 
take the information from him, type it into the computer, it 
goes to Social Security, and within a matter of seconds I get 
the information back, it is a match or no match. Why can't you 
do that?
    Ms. Sprague. We don't do it for two reasons. First of all, 
because we want to make sure that it is done, and so that is 
the reason that we want it to be available to the adjudicator 
before he even starts.
    Second of all, by going through the batch process, they 
give us a lot more information. When you go with the E-Verify 
process, which is the other alternative that they can offer, 
they give you a match or a no-match. We get information--and I 
am not as up on this as I should be. But we will get 
information, for example, that will indicate to us that a 
number has been transposed, and we can look on the screen and 
see that someone read a 7 as a----
    Senator Kyl. OK, so if you had to----
    Ms. Sprague. So that has been very useful to us.
    Senator Kyl. If you had to, you could use it in the E-
Verify system and get an immediate response, but you get more 
useful information by taking the 24-hour period.
    Ms. Sprague. Exactly.
    Senator Kyl. OK. Thank you.
    Ms. Sprague. Exactly.
    Senator Kyl. The only other thing I wanted to ask you to 
do, you answered my question that reducing the requirements 
under REAL ID would be a real problem. I have forgotten--I do 
not mean to put words in your mouth, but it was----
    Ms. Sprague. We are extremely disappointed.
    Senator Kyl. Extremely disappointed in any effort in that 
vein.
    In the ever lengthier memo that we are asking you to send 
us, could you just describe the reasons for that, what your 
concerns really are and the reasons for that? Because there is 
still a lot of debate about exactly what we should do with 
that, and I think your weighing in, indicating how important it 
is to have good information there, could be influential with 
colleagues who may simply not be aware of the reasons why the 
State Department needs to have this information.
    Ms. Sprague. I would be delighted.
    Senator Kyl. Great. That would be much appreciated.
    Thank you, Mr. Chairman.
    Chairman Cardin. Thank you.
    Thank you, Ms. Sprague. We appreciate your testimony. We 
appreciate the work that you all do, and we look forward to 
working with you.
    Ms. Sprague. Thank you, Senator.
    Chairman Cardin. Mr. Ford, we have the GAO report to 
Congress that was made available at the request of Senator 
Feinstein and Senator Kyl. The report will be made part of our 
Subcommittee record. We thank you for the work that you have 
done in this area, and we look forward to hearing your 
testimony.

STATEMENT OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
  TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Mr. Ford. Mr. Chairman, members of the Subcommittee, thank 
you for the opportunity to discuss our recent work on 
significant fraud vulnerabilities in the passport issuance 
process. My testimony today will highlight the results of our 
March 2009 report, which you just referred to, and also will 
summarize a letter we sent to you in April which catalogued a 
number of suggestions that we had for the State Department to 
try to remedy some of these vulnerabilities.
    As you know, a passport not only allows an individual to 
travel freely in and out of the United States, but it also can 
be used further as an identification document to prove U.S. 
citizenship and set up bank accounts, among other things. 
Because passports issued under a false identity help enable 
individuals to conceal their movements and activities, there is 
great concern that passport fraud could facilitate acts of 
terrorism. Further, passport fraud facilitates other crimes 
such as illegal immigration, money laundering, drug 
trafficking, tax evasion, and alien smuggling. Malicious 
individuals may seek to exploit vulnerabilities in the State 
Department's current passport issuance process by using 
counterfeit or fraudulently obtained documents as proof of 
identity and U.S. citizenship.
    In March of 2009, we reported on the results of our 
investigation into the vulnerabilities of State's passport 
issuance process. Specifically, our undercover investigator was 
able to easily obtain four genuine U.S. passports using 
counterfeit or fraudulently obtained documents. We attempted to 
obtain the four genuine U.S. passports by using counterfeit or 
fraudulently obtained documents, such as birth certificates and 
driver's licenses, and Social Security numbers of fictitious or 
deceased individuals. In the most egregious case, our 
investigator obtained a U.S. passport using counterfeit 
documents and a Social Security number of a man who had died in 
1965. In another case, our undercover investigator obtained a 
U.S. passport using counterfeit documents and the genuine 
Social Security number of a fictitious 5-year-old child--even 
though the individual applying for the passport was 53 years 
old.
    The results of our investigation confirmed that the State 
Department continues to struggle with reducing fraud risks that 
we had previously identified in reports we issued in 2005 and 
in 2007. In 2005, we reported that using stolen identities and 
documentation was a primary tactic of those who sought to 
obtain a U.S. passport. We also reported weaknesses in the 
State Department's information-sharing system. For example, we 
reported that State did not receive information about U.S. 
citizens contained in the Federal Government's consolidated 
terrorist watch list, and the State Department did not 
routinely obtain the names of other individuals wanted by both 
Federal and State law enforcement authorities. We also found 
that the information that the State Department received from 
the Social Security Administration was limited and did not 
include access to Social Security death records, although State 
Department officials said at the time they were exploring the 
possibility of using these records.
    A little over 2 years later, in July of 2007, we reported 
that the State Department lacked a formal oversight program 
over its 9,500 acceptance agencies and noted that State lacked 
a formal oversight effort to ensure that the individuals who 
worked in these facilities--primarily postal offices--had 
adequate controls to ensure that fraud was not perpetrated by 
applicants.
    The State Department, as you have heard, has responded to 
many of the vulnerabilities that we recently reported. With 
regard to adjudication, the State Department told us that human 
error and a lack of access to information contributed to 
failures to identify our recent undercover tests. According to 
the State Department, passport specialists did not wait for the 
results of a required Social Security data-base check before 
approving our fraudulent applications.
    In all four of our tests, State failed to identify the 
fraudulent birth certificates that we used. State officials 
attributed these failures to a lack of access to the State-
level vital records data that would have allowed them to verify 
the authenticity of the birth certificates. State officials 
indicated they were exploring ways to access vital records and 
the Department of Motor Vehicle records nationwide to help 
address this problem.
    In the case of our most egregious application in which we 
fraudulently obtained a passport using the Social Security 
number of a man who had died in 1965, State officials said that 
the lack of an automated check against Social Security death 
records had been a longstanding vulnerability in the passport 
system. In an attempt to provide automated death record 
information in all cases reviewed during the adjudication, 
passport officials told us they recently purchased a 
subscription to the Death Master File, which includes weekly 
updates of deaths recorded by the Social Security 
Administration.
    With respect to the passport acceptance process, State 
officials told us they are working toward improving oversight 
of the passport acceptance facilities that we had recommended 
from our 2007 report. They said that in September of 2008, they 
announced a new oversight program, and they are currently in 
the process of staffing that office to provide oversight over 
all of the acceptance agencies.
    In addition, the State Department told us they have taken 
several actions with respect to our undercover investigation. 
As was mentioned, they suspended the adjudication authority of 
the passport specialists responsible for approving the 
fraudulent applications and the authority of the facilities 
that accepted the applications. It revised the performance 
standards for passport specialists to eliminate production 
targets while all other aspects of performance standards were 
left intact. The State officials added that Passport Services 
will be conducting a study working with its union to develop 
new targets.
    In conclusion, Mr. Chairman, we made several 
recommendations to the Secretary of State to help reduce the 
vulnerabilities, and I will quickly just cite these, and we can 
discuss these further.
    No. 1 is they certainly need to do more training and devote 
more resources to the whole issue of passport fraud, 
particularly with detecting false and counterfeit documents.
    Second, we recommended that they explore using commercial 
options to providing real-time checks on the validity of Social 
Security numbers and other information on applicants.
    Third, we recommended that they develop what we call ``red 
teams'' to do intrusive tests similar to our own to test their 
system to make sure that the system does not have the same 
vulnerabilities that we identified.
    We also indicated that they should work with State-level 
officials to gain better access to the key information that 
they need on driver's licenses and vital statistics to help 
ensure that the documents they receive are authentic.
    We also recommended that they wait 24 hours before they 
approve passports from Social Security except under extenuating 
circumstances.
    With that, Mr. Chairman, I would like to stop and answer 
any of the questions you may have.
    [The prepared statement of Mr. Ford appears as a submission 
for the record.]
    Chairman Cardin. Senator Kyl?
    Senator Kyl. Mr. Chairman, thank you for letting me go out 
of order here. I am going to have to leave in just a moment. 
But I wanted to thank you, Mr. Ford, and thank the folks that 
you work with that produced this report. It is very valuable to 
us, and one has to wonder if you had not done this and brought 
these matters to the attention of the State Department, would 
they still be making the same errors that they were making that 
your report verified?
    While I have a lot of questions, I may submit one or two to 
you for the record. I would like to just highlight one matter 
and ask for you to respond for the record. You do not need to 
do it right now. But if you share the same view that weakening 
the REAL ID driver's license requirements would be a bad thing, 
as the previous witness, could you expound on that a little bit 
in a written response to the Committee?
    Mr. Ford. I would be happy to do that. I think in general 
we would--given what has happened here in terms of using 
fictitious driver's licenses, clearly this is an issue.
    Also, I might add that in one of our tests, we did obtain 
using counterfeit documents a D.C. ID and used that as part of 
our test. So we have at least one example where we were able to 
obtain an authentic D.C. Government identification document, 
which we in turn used to acquire one of the passports.
    Senator Kyl. I really appreciate it. Thank you very much, 
and, again, I apologize for having to leave, but I just got a 
notice that I have got to run. So thank you very much.
    Chairman Cardin. Thank you, Senator Kyl. I think you do 
raise a good point, though, about the identification documents 
that are used to support application for a passport. There may 
well be some follow-up that we need to do to protect the 
integrity of being able to obtain those types of documents. It 
does not relieve the passport office from its responsibility, 
but we do not want to see fraudulent documents being able to be 
obtained. You showed several vulnerabilities in the system, in 
addition to just the passport problem itself.
    Would it be helpful for you to have access to the red team 
tests that the State Department indicates that they are going 
to be implementing? Would it be useful for--I have an idea that 
we are going to be asking you to do this again, and prior to 
that, I assume there is going to be some covert tests done by 
the State Department. Is it useful for you to have that 
information?
    Mr. Ford. Absolutely. If we are asked by Congress to look 
into this matter, to the extent that we can see whether the 
State Department has done its own internal tests, we certainly 
would find that beneficial. Of course, we have our own 
investigative unit here in GAO, and we can certainly do those 
ourselves. And given the fact that many of these 
vulnerabilities we reported 4 years ago, certainly we are 
concerned about whether these tests need to be done. They need 
to be done more frequently than they currently are.
    Chairman Cardin. I believe I read in the report--and maybe 
I am inaccurate, so correct me if I am wrong. One of the things 
I found very troubling is that one of the applicants in seeking 
the application was pretty much assured that the passport would 
be ready pretty quickly and got the impression there was not 
going to be much of a review done.
    I guess my concern is this is at least your third time down 
this road. Some of these recommendations are similar to 
recommendations that have been made in the past. I assume as a 
result of the prior investigations there were good-faith 
commitments made by the State Department to implement the type 
of changes needed. Is there something that you have seen in the 
response from the State Department this time that would give 
you greater confidence that the recommendations will be acted 
upon?
    Mr. Ford. Well, first of all, let me say I applaud the fact 
that the Department took our investigation seriously. They met 
with our investigators. They met with those of us on the audit 
side at GAO, and they sincerely indicated that they needed to 
address the vulnerabilities that we found.
    I would like to say that I have a high level of confidence 
that some of these vulnerabilities will be closed, but I will 
also say that we have been down this road before with them in 
prior reports. I think that it is clear that they did close 
some vulnerabilities that we reported in the past, but I am not 
sanguine about the fact that we will not have similar problems 
like this in the future.
    I think there is an issue of vigilance that the Department 
needs to maintain, and I think there is also an issue of 
commitment, you know, that they make this part of their 
everyday way of doing business. And I think if they do that, 
there is a likelihood that we can reduce the risk of these 
types of things happening. But I am not sure we will ever get 
to a point where we can say with certainty that these risks 
will be 100 percent remedied by the Department.
    Chairman Cardin. We had received a statement from the 
National Vice President of the National Federation of Federal 
Employees telling us that there is tremendous pressure put on 
the workers here to process a large number of applicants, that 
there is a lot of community pressure for these passports to be 
issued, and that at least at one point there seemed to be 
quotas installed, although that has been denied as to any 
quotas existing today.
    Did you find this in your report that there was pressure 
put on the employees to complete applications so that the 
numbers were adequate to meet the public demand?
    Mr. Ford. That was not one of the focuses of our review. 
However, we have done some prior work related to the issue from 
last summer--or 2007 when the Department was under extreme 
pressure to process passports because of the delays, and the 
American public was quite concerned about being able to get 
their passports.
    While that was not the focus of our review, we did hear 
instances of cases when passport specialists had indicated that 
they were under pressure to produce as quickly as possible the 
passports, to get them out.
    I know that the union believes that the performance 
standards that the Department has placed on them, which have 
certain production goals--I am not sure how they rephrased 
them; I guess ``goals''--of how many passports should be 
produced in a particular timeframe in their view affected their 
ability to do quality review for fraud. We have not examined 
that in detail, but I can say that there is definitely a 
tension there between the passport specialists who want to get 
the passports done quickly because of those performance 
standards and the issue of doing a quality review to make sure 
that the proper checks are made to ensure that there is no 
fraud involved. So that tension certainly existed, particularly 
in 2007 when they were under the gun to get the passports out.
    Chairman Cardin. I appreciate that. I think there are two 
separate issues here. I just want to clarify this. If we had 
the best data bank information available today, the procedures 
being used by the State Department in issuing passports had 
such lack of control in it because of the 24-hour turnaround 
without doing the checks, it is likely that your four cases 
would have still been able to obtain fraudulent information. It 
was not the lack of information being out there. It was the 
process being used and the training of the individuals, and you 
point that out pretty clearly.
    On the other hand, if we correct the first part, if we do 
all the due diligence, we need to have the adequate data bank 
in order to make this an efficient system and an effective 
system. And I think today we have heard how we can improve 
that. Certainly as it relates to driver's licenses, as it 
relates to birth certificates, we can certainly improve that 
type of information, and it would be extremely helpful to the 
future issuance of proper passports.
    But I just really want to underscore the point of your 
study, which was the fundamentals were not there. They were not 
doing the necessary due diligence. And it was not the data bank 
failures; it was more the human failure in this case. Isn't 
that a fair assessment at this point?
    Mr. Ford. Well, again, that is what the State Department 
told us. We did not investigate whose fault it was for not 
doing the check. We were told by the Department that it was 
human error, that they had not filed the checks. However, there 
was a lot of confusion about what the requirement is. Whether 
they actually have to wait the 24-hour period or not, whether 
or not they had a firm policy in place that said you must wait 
24 hours, that part we have not really studied in depth. So I 
cannot say with certainty it is just a human error problem, if 
that is your question. That is----
    Chairman Cardin. No, I think you have answered it. Using 
your report based upon their response, it was predominantly a 
human error problem in the end, using their reaction to it. I 
know you have not studied how accurate their response has been.
    Mr. Ford. Right.
    Chairman Cardin. But a lot of our testimony here has dealt 
with that issue as well as how we can improve the processing by 
having more reliable data banks accessible by the passport 
office to check births and check driver's licenses. We have it 
for Social Security numbers. That is there now.
    Mr. Ford. Right.
    Chairman Cardin. So that could have been done. In at least 
two cases here, it was not done.
    Mr. Ford. That is correct.
    Chairman Cardin. We know that because that information was 
there. On the driver's licenses and birth certificates, it is 
unclear whether they could have gotten sufficient information 
from the search.
    Mr. Ford. Well, I think that is true, but I also think that 
there is also some training involved about, you know, looking 
at the documents themselves.
    Chairman Cardin. Absolutely.
    Mr. Ford. You know, these are the ones we used. Some of 
these, you know, you can go on your home computer and make 
them, and, you know, it is not just checking the data-base. In 
some cases, the person who is accepting your application needs 
to do at least the rudimentary check to see whether or not does 
this look like a real birth certificate type document or not. 
And they ought to have some knowledge, particularly if they are 
in some State, what kind of birth certificates does the State 
issue.
    It is a little more sophisticated than just, you know, 
doing a data check. The people who accept these applications 
need to have some training in authenticity of documentation, 
whether it be one of these or even driver's licenses, and they 
should be familiar with the types of documents that are 
available in the location where they operate.
    So there is a training element to this that we have called 
for in our prior work--and I think it is still valid today--
that we need to have trained people out there that have some 
general knowledge of what does a genuine document look like.
    Chairman Cardin. And that was your first recommendation, if 
I remember correctly, the proper training of the people who 
take these applications.
    You raise a very, very important point, a very valid point, 
that at the end of the day, a good part of this will be the 
training of the person issuing the application as to whether 
there is something that does not seem right in this 
application, whether it is the way the document looks or other 
factors. And you need that human aspect to this, and training 
is critically important if we are going to be successful in 
dealing with it. That is all part of national--homeland 
security is based upon that type of observation by trained 
professionals.
    We have to figure out--I assume the next time we do this 
test, we are going to try to test that again by using similar 
type documents and see whether, in fact, they have improved.
    Mr. Ford. Yes.
    Chairman Cardin. Well, I thank you. This has been extremely 
helpful, and I will conclude this hearing where I started, and 
that is, you know, this is a matter of, I think, extreme 
importance for national security. We rely more and more on 
passports in this country. It is a standard that we demand from 
other countries if they want access of their citizens to 
America, and we have an obligation to make sure that our system 
is done in an adequate way. This report was very, very 
troubling, and I was pleased to see the State Department 
acknowledge that from the beginning. And we need to now all 
work together to make sure that the changes are put in place in 
order to protect the security of our country and the integrity 
of our passport.
    We look forward to working with GAO as we move forward with 
additional work and working with the State Department so that 
we accomplish the objectives of the proper issuance of 
passports.
    The hearing record will remain open for 1 week for 
additional questions and statements from Senators. I would ask 
the witnesses to respond in a timely manner to any additional 
written questions that may be propounded.
    With that, the hearing will stand adjourned. Thank you all 
very much.
    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
